                   AUDIT REPORT

                      Audit of NRC’s Physical Security
                     Inspection Program for Category I
                            Fuel Cycle Facilities

                     OIG-10-A-01 November 3, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                          November 3, 2009



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S PHYSICAL SECURITY INSPECTION
                            PROGRAM FOR CATEGORY I FUEL
                            CYCLE FACILITIES (OIG-10-A-01)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Physical Security Inspection Program for Category I Fuel Cycle Facilities.

The report presents the results of the subject audit. Agency comments provided during
and subsequent to an August 26, 2009, exit conference have been incorporated, as
appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl A. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                  Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities



EXECUTIVE SUMMARY

   BACKGROUND

        The Nuclear Regulatory Commission (NRC) oversees security
        programs at facilities that manufacture fuel for nuclear reactors.
        These fuel cycle facilities use “special nuclear materials” in the
        manufacturing process. NRC classifies special nuclear materials
        and the facilities that possess them into three categories based
        upon the materials’ potential for use in nuclear weapons, or
        “strategic significance.” The three categories are:

               Category I: High strategic significance.
               Category II: Moderate strategic significance.
               Category III: Low strategic significance.

        Two fuel cycle facilities in the United States process Category I
        materials into nuclear fuel for the Federal Government. The U.S.
        Navy, in particular, uses this fuel in nuclear powered ships and
        submarines. There are no Category II fuel cycle facilities operating
        in the United States as of June 2009, and Category III facilities are
        subject to a different NRC physical security inspection regime than
        Category I facilities because these materials present less risk to
        public safety and security.

        The main objective of NRC’s oversight program for Category I fuel
        cycle facilities is to ensure that these facilities operate safely and
        securely in accordance with NRC requirements. Since the terrorist
        attacks of September 11, 2001, NRC has issued licensees new
        requirements and guidance to enhance security at Category I fuel
        cycle facilities against sabotage and theft of nuclear materials.

   PURPOSE

        The objective of this audit was to assess the effectiveness of the
        NRC’s physical security inspection program over the protection and
        control of special nuclear material at Category I fuel cycle facilities.




                                            i
               Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


RESULTS IN BRIEF

      The Office of Nuclear Security and Incident Response fulfills its
      responsibility to conduct physical security inspections at Category I
      fuel cycle facilities. However, the inspection program faces the
      following two challenges:

           Need to provide physical security training for supervisors
            without previous security experience to enhance
            management oversight of inspections.

           Inspection guidance has not undergone periodic review to ensure
            that it aligns with current NRC security guidance and
            requirements.

RECOMMENDATIONS

      This report makes two recommendations to improve the agency’s
      physical security inspection program at Category I fuel cycle
      facilities. A consolidated list of these recommendations appears in
      Section V of this report.

AGENCY COMMENTS

      At an August 26, 2009, exit conference, agency senior executives
      agreed to provide suggested revisions to the discussion draft report
      for the Office of the Inspector General’s (OIG) consideration. On
      September 1, 2009, NRC provided suggested report revisions,
      which served as a basis for further discussions between the agency
      and OIG. This final report incorporates revisions made, where
      appropriate, as a result of the agency’s suggestions.

      On September 25, 2009, the Executive Director for Operations
      provided a formal response to this report (see Appendix B). No
      additional changes were made to the report based on the agency’s
      formal response. OIG’s response to the agency’s formal comments
      is presented in Appendix C.




                                        ii
              Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


ABBREVIATIONS AND ACRONYMS

       NRC          Nuclear Regulatory Commission

       NSIR         Office of Nuclear Security and Incident Response

       OIG          Office of the Inspector General




                                       iii
Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities




    [Page intentionally left blank.]




                         iv
                          Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


TABLE OF CONTENTS

    EXECUTIVE SUMMARY........................................................................... i

    ABBREVIATIONS AND ACRONYMS ..................................................... iii

    I.     BACKGROUND ...............................................................................1

    II.    PURPOSE........................................................................................3

    III.   FINDINGS ........................................................................................4

             A.     NEED TO PROVIDE SECURITY TRAINING TO ENHANCE
                    MANAGEMENT OVERSIGHT .......................................................4

             B.     NRC HAS NOT CONDUCTED TIMELY REVIEWS OF INSPECTION
                    GUIDANCE ...............................................................................7

    IV.    AGENCY COMMENTS ..................................................................10

    V.     CONSOLIDATED LIST OF RECOMMENDATIONS ......................11

    APPENDICES

    A.     SCOPE AND METHODOLOGY.....................................................13

    B.      FORMAL AGENCY COMMENTS.................................................15

    C.      OIG REPSONSE TO FORMAL AGENCY COMMENTS...............17




                                                    v
Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities




    [Page intentionally left blank.]




                         vi
                 Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


I.   BACKGROUND

        Category I Fuel Cycle Facility Inspections

        The Nuclear Regulatory Commission (NRC) oversees security
        programs at facilities that manufacture fuel for nuclear reactors.
        These fuel cycle facilities use “special nuclear materials” in the
        manufacturing process. NRC classifies special nuclear materials
        and the facilities that possess them in three categories, based upon
        the materials’ potential for use in nuclear weapons, or “strategic
        significance. The three categories are:

           Category I: High strategic significance.
           Category II: Moderate strategic significance.
           Category III: Low strategic significance.

        Two fuel cycle facilities in the United States process Category I
        materials into nuclear fuel for the Federal Government. The U.S.
        Navy, in particular, uses this fuel in nuclear powered ships and
        submarines. There were no Category II fuel cycle facilities
        operating in the United States as of June 2009, and Category III
        facilities are subject to a different NRC physical security inspection
        regime than Category I facilities because these materials present
        less risk to public safety and security. This report focuses on
        NRC’s oversight of Category I fuel cycle facilities.




                 Figure 1: Fuel cycle facility personnel processing uranium.

                 Source: Babcock and Wilcox Nuclear Operations Group


                                           1
                            Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


                The main objective of NRC’s oversight program for Category I fuel
                cycle facilities is to ensure that these facilities operate safely and
                securely in accordance with NRC requirements. Since the terrorist
                attacks of September 11, 2001, NRC has issued new requirements
                and guidance to licensees to enhance security at Category I fuel
                cycle facilities against sabotage and theft of nuclear materials.
                NRC employs resident inspectors at each Category I fuel cycle
                facility for general day-to-day oversight, while NRC regional
                physical security inspectors conduct inspections during routine site
                visits.


                Inspection Process

                NRC’s physical security inspection
                program requires three areas to be
                reviewed annually at each Category I fuel
                cycle facility.1 These areas, arranged by
                inspection procedure groupings called
                “suites,” are (1) Access Controls (2)
                Alarms and Barriers and (3) Other Security
                Areas.2 The three suites are composed of
                34 separate inspection procedures, which
                NRC staff use as guidance for conducting
                physical security inspections at Category I
                fuel cycle facilities. Each inspection
                procedure suite prescribes a specific
                number of hours to be worked during each
                annual or triennial inspection cycle. For
                instance, NRC inspectors plan to spend
                40 hours over a 12-month period                                   Figure 2: Armed security
                                                                                  officers safeguard fuel
                assessing access controls, while                                  cycle facilities and are
                transportation security is allocated 8 hours                      trained according to
                of inspection work over a 36-month                                standards specified in
                                                                                  Federal Government
                period. Inspections are intended to                               regulations.
                evaluate security and compliance, identify
                deficiencies and determine their                                  Source: Babcock and
                                                                                  Wilcox Nuclear Operations
1
 Category I fuel cycle facilities undergo a triennial transportation security inspection conducted
by NRC with the assistance of local law enforcement. In addition, NRC conducts triennial force-
on-force inspections at these facilities. This audit did not examine force-on-force inspections at
Category I fuel cycle facilities.
2
 This includes inspections of security plans and implementing procedures, and personnel training
and qualifications.
                                                      2
                             Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


                  significance, assess licensee corrective actions, and document
                  results. NRC reports the results of Category I facility inspections to
                  Congress on an annual basis in accordance with the 2005 Energy
                  Policy Act, and the licensees are given a copy of each inspection
                  report after the inspection has occurred.

                  Program Staffing and Resource Requirements

                  The Office of Nuclear Security and Incident Response (NSIR)
                  manages the fuel cycle facility physical security inspection program
                  and is primarily responsible for reviewing and developing inspection
                  guidance. Staff based in NRC’s Region II office conduct
                  inspections, with one branch chief supervising two physical security
                  inspectors.3 Physical security inspections at Category I facilities
                  averaged approximately 1,057 hours of work per calendar year
                  from 2007 to 2009.4


II.      PURPOSE

                  The audit objective was to assess the effectiveness of the physical
                  security inspection program over the protection and control of
                  special nuclear materials at Category I fuel cycle facilities.
                  Appendix A contains information on the audit scope and
                  methodology.




3
    Triennial force-on-force inspections are managed by headquarters-based NSIR staff.
4
  The average was based on projections for the remainder of FY 2009. Time spent includes
inspection preparation and documentation work, in addition to onsite inspection hours.
                                                       3
                      Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


III.   FINDINGS

             NSIR fulfills its responsibility to conduct physical security
             inspections at Category I fuel cycle facilities. However, the
             inspection program faces the following two challenges:

                   Need to provide physical security training for supervisor
                    without previous security experience to enhance
                    management oversight of inspections, and

                   Inspection guidance has not undergone periodic review to
                    ensure that it aligns with current NRC security guidance and
                    requirements.


       A.   Security Training Would Enhance Management Oversight

             Federal Government internal control guidance recommends that
             agencies staff positions with qualified personnel and provide
             appropriate training. NRC branch chiefs play an important role in
             overseeing inspection activities; however, the branch chiefs
             responsible for fuel cycle facility physical security inspections are
             not required to have background experience or undergo training in
             this area. NRC opens branch chief positions to generalists to
             increase the pool of potential job candidates, and staff said that
             branch chiefs can learn through on-the-job training and that branch
             chiefs rely on inspectors for technical expertise. In addition, NRC
             seeks candidates who exhibit leadership and supervisory skills, as
             well as programmatic and regulatory knowledge.

             Without providing job-specific training to branch chiefs, NRC faces
             increased risk that branch chiefs might not be able to fulfill duties
             such as training new inspectors and reviewing inspection reports.

             Branch Chiefs Should Have Working Knowledge of Physical
             Security

             As a best practice, branch chiefs should have a working knowledge
             of physical security that enables them to ensure effective
             performance of their branch. This includes a thorough
             understanding of security planning, procedures, and equipment,
             and the employment of security personnel in safeguarding

                                                4
                          Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


               Category I fuel cycle facilities. Understanding these issues is
               essential for inspectors as well as their branch chief supervisors to
               uphold NRC’s physical security oversight role.

               Physical Security Experience and Training Not Required of
               Branch Chiefs

               Although branch chiefs play an important supervisory role, branch
               chiefs who oversee physical security inspections at Category I fuel
               cycle facilities are not required to have security experience as a
               prerequisite or to undergo physical security training. According to
               the job description, branch chiefs are responsible for a range of
               tasks, including assessing employee performance, training new
               inspectors, reviewing and approving work products, and informing
               regional and division management of significant issues. In addition,
               branch chiefs are expected to manage the branch’s technical
               experts, endorse inspection findings, and make recommendations
               to senior management for dealing with compliance issues and for
               revising NRC rules, regulations, and procedures. The current
               branch chief is a qualified reactor inspector and has NRC
               experience in licensing and incident response but has not worked
               on or undergone training in physical security at NRC.5 This branch
               chief relies on experienced senior staff, including the inspectors he
               supervises, for technical expertise. Senior staff said this is standard
               NRC practice, and that branch chiefs are selected primarily for their
               leadership and management skills, as well as their fluency in NRC’s
               regulatory process.

               Human Resource Practices Do Not Emphasize Security
               Experience and Training for Managers

               The lack of security-specific experience and training required for
               fuel cycle facility security branch chiefs is attributable to NRC hiring
               and staff development practices. When soliciting vacancy
               announcements to fill open branch chief positions, NRC does not
               list experience or expertise in physical security as a prerequisite or
               recommended skill set. NRC reportedly does this, in part, to
               increase the number of potential job candidates and to emphasize
               branch chiefs’ primary supervisory responsibilities and duties.
               Once hired, branch chiefs responsible for fuel cycle facility security

5
 The current branch chief’s predecessor also had extensive experience at NRC, but not in
physical security.

                                                    5
                            Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


                  are not required to undergo physical security training unlike those
                  at nuclear plants.6 Senior regional managers told auditors that this
                  situation was not problematic because they rely on branch chiefs
                  mainly for their leadership and management skills. In addition, one
                  manager said the branch chiefs are primarily responsible for
                  supervising and advising staff and, therefore, must be familiar with
                  NRC’s regulatory processes.

                  Security Training for Branch Chiefs Would Enhance
                  Management Oversight

                  Although OIG found no evidence that the branch chiefs’ lack of
                  security related experience and training has compromised security
                  inspections at fuel cycle facilities, this situation presents two
                  potential internal control challenges. First, if branch chiefs rely on
                  the inspectors they oversee for technical expertise, this raises
                  questions about their capacity to evaluate inspector performance
                  and independently review and approve inspection reports. Second,
                  one senior regional manager cited knowledge management as a
                  primary concern, stating that loss of the senior physical security
                  inspector assigned to fuel cycle facilities would pose a significant
                  problem. Third, branch chiefs cannot reasonably be expected to
                  train and advise physical security inspectors without possessing
                  some degree of job-specific skills and knowledge. Staff told
                  auditors that that branch chiefs can develop security expertise
                  through on-the-job training. However, personnel turnover trends
                  militate against this; five individuals have held the branch chief
                  position over the past 7 years,7 and none of these individuals has
                  served more than 22 months in the position.

                  Recommendation

                  OIG recommends that the Executive Director for Operations:

                  1. Provide appropriate security training for non-security personnel
                     who have management responsibilities for physical security
                     inspections at fuel cycle facilities.

6
  Branch chiefs responsible for security oversight at nuclear power plants are required to take
courses in physical security. NRC adopted this policy in response to an OIG audit
recommendation that NRC develop and provide a security training program for non-security
personnel with security oversight responsibilities. See OIG-06-A-21, Audit of NRC’s Baseline
Security and Safeguards Inspection Program.
7
    From July 2002 to July 2009.
                                                      6
              Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


B. NRC Has Not Conducted Timely Reviews of Inspection
Guidance

     NRC guidance requires staff to review inspection policies and
     procedures at least once every 3 years and to revise them as
     necessary. However, guidance for fuel cycle facility security
     inspections has not undergone routine review and has not been
     revised to ensure that it is up to date. Inspection guidance reviews
     and revisions have not occurred because NRC has not dedicated
     resources for this work and the agency has reportedly deferred
     some guidance revision pending an ongoing security rulemaking.
     As a consequence, NRC lacks assurance that physical security
     inspections are conducted in accordance with current regulations
     and requirements, which has the potential to compromise the
     agency’s oversight function.

     Inspection Guidance Should Undergo Periodic Review

     NRC guidance advises staff to review inspection policies and
     procedures at least once every 3 years and to revise them as
     necessary. NSIR is the program office that manages security
     inspections at fuel cycle facilities and has primary responsibility for
     updating inspection guidance. Regional offices are to provide
     technical experts to help review and revise the guidance.

     Inspection Guidance Not Routinely Reviewed and Updated

     Guidance for fuel cycle facility physical security inspections has not
     undergone routine review and has not been revised to ensure that
     the guidance is up to date. Physical security inspectors and
     headquarters-based NSIR staff said there have been some efforts
     to revise inspection guidance, but acknowledged that this has not
     occurred in a systematic way. For example, 9 of 34 of the
     applicable inspection procedures were issued before 1987 and
     have not been updated.

     Moreover, staff recommended that reviews should address content
     gaps and overlaps among some inspection manual chapters and
     inspection procedures applicable to the program. Figure 1 shows
     the number of applicable inspection procedures by year of
     issuance.



                                        7
                           Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities




                Figure 1: Physical Security Inspection Procedures Issued from 1984 to 2008.


                             Number of Physical Security Inspection
                              Procedures for Fuel Cycle Facilities
                                        (by Year Issued)



                                                     4                       Issued 1984
                                    9                     1
                                                                             Issued 1985
                                                              4
                                                                             Issued 1986

                                                                             Issued 2007

                                                                             Issued 2008
                                              16



                Resource Constraints Hinder Guidance Review

                NRC’s efforts to review and update inspection guidance have been
                limited by resource constraints. Regional inspectors have reviewed
                some guidance as a collateral duty, but have little time to devote to
                this work apart from their inspection responsibilities. NRC has
                reportedly not committed more personnel to inspection guidance
                revision because of a pending rulemaking that could have a major
                impact on fuel cycle facility oversight. However, NSIR planned to
                commit one staff member to conduct a guidance review at the
                Region II office during summer 2009.8

                No Assurance That Inspection Guidance Reflects Current NRC
                Standards

                Without updating and revising physical security inspection guidance
                for Category I fuel cycle facilities, NRC lacks assurance that its
                inspections are conducted in accordance with current regulations

8
 According to NSIR staff, nearly all fuel cycle facility security inspection procedures have been
updated as of September 1, 2009, and are undergoing administrative review prior to issuance. In
addition, NRC has undertaken a broad-reaching revision of the Fuel Cycle Oversight Process,
which will require a future update of security inspection guidance.
                                                     8
         Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


and requirements. NRC has issued new guidance and security
orders to licensees since the terrorist attacks of September 11,
2001, to reflect changing security conditions. Relying on outdated
inspection guidance for agency staff creates the potential that
physical security inspectors might overlook deficiencies in
licensees’ security programs or licensees’ failure to comply with
current NRC regulations and requirements, thereby compromising
the agency’s oversight function.

Recommendation

OIG recommends that the Executive Director for Operations:

2. Review physical security inspection guidance periodically, and
   revise as necessary with an emphasis on currency and
   consistency.




                                   9
                   Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


IV.   AGENCY COMMENTS

          At an August 26, 2009, exit conference, agency senior executives
          agreed to provide suggested revisions to the discussion draft report
          for the Office of the Inspector General’s (OIG) consideration. On
          September 1, 2009, NRC provided suggested report revisions,
          which served as a basis for further discussions between the agency
          and OIG. This final report incorporates revisions made, where
          appropriate, as a result of the agency’s suggestions.

          On September 25, 2009, the Executive Director for Operations
          provided a formal response to this report (see Appendix B). No
          changes were made to the report based on the agency’s formal
          response. OIG’s response to the agency’s formal comments is
          presented in Appendix C.




                                            10
                  Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


V.   CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1. Provide appropriate security training for non-security personnel
            who have management responsibilities for physical security
            inspections at fuel cycle facilities.

         2. Review physical security inspection guidance periodically, and
            revise as necessary with an emphasis on currency and
            consistency.




                                           11
Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities




    [Page intentionally left blank.]




                         12
                Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


                                                                                         Appendix A
SCOPE AND METHODOLOGY

       The audit objective was to assess the effectiveness of NRC’s
       physical security inspection program over the protection and control
       of special nuclear material at Category I fuel cycle facilities.

       Auditors reviewed and analyzed pertinent laws, regulations,
       authoritative guidance, NRC policies and procedures, and prior
       relevant NRC OIG reports. Guidance reviewed included the
       following:

           GAO Standards for Internal Control in the Federal
            Government.

           Inspection Manual Chapter 2600.

           Inspection Manual Chapter 2681.

       OIG interviewed headquarters NSIR staff and conducted interviews
       at Region II, both in person and over the telephone to gain an
       understanding about the qualifications of the inspectors and
       management staff over physical security inspections.

       OIG observed physical security inspections at two Category I fuel
       cycle facilities: Nuclear Fuel Services, in Erwin, TN, and B&W
       Nuclear Operations Group in Lynchburg, VA. OIG interviewed both
       security inspectors as part of the observations.

       OIG conducted this audit between January 2009 and August 2009
       in accordance with generally accepted government auditing
       standards. Those standards require that we plan and perform the
       audit to obtain sufficient, appropriate evidence to provide a
       reasonable basis for our findings and conclusions based on our
       audit objective. We believe that the evidence obtained provides a
       reasonable basis for our findings and conclusions based on our
       audit objectives.

       The work was conducted by Beth Serepca, Team Leader;
       Terri Cooper, Audit Manager; Paul Rades, Audit Manager;
       Rob Woodward, Senior Auditor; and James McGaughey, Senior
       Analyst.


                                         13
Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities




    [Page intentionally left blank.]




                         14
            Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


                                                                                     Appendix B
FORMAL AGENCY COMMENTS




                                     15
Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities




                         16
                Audit of NRC’s Physical Security Inspection Program for Category I Fuel Cycle Facilities


                                                                                         Appendix C
OIG RESPONSE TO FORMAL AGENCY COMMENTS

       OIG does not deny the importance of management skills in
       selecting management candidates, nor does the report recommend
       that managers be selected solely on the basis of technical skills.
       Rather, OIG asserts that it is reasonable to expect managers to
       have a working knowledge of job-specific subject matter, and that
       NRC should provide appropriate training to managers to enter a
       field having no prior professional experience or formal training in
       that field.




                                         17
